HHS/OIG, Audit -"Review of Medicaid Drug Rebates at State Medicaid Agencies for the State of Maine,"(A-01-03-00007)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Drug Rebates at State Medicaid Agencies for the State of Maine," (A-01-03-00007)
September 19, 2003
Complete Text of Report is available in PDF format (265 KB). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were: (1) verify the total reported uncollected drug rebates for the State of Maine as of
June 30, 2002, (2) determine whether the State agency has established adequate internal controls with regard to the Medicaid
drug rebate program, and (3) evaluate the effectiveness of the actions taken by the State agency to resolve outstanding
disputes.  We found that the State agency had not established adequate procedures to ensure that invoiced rebates
or accounting adjustments are made to quarterly reports to the Centers for Mediare and Medicaid Services (CMS); all disputed
rebate amounts are followed-up with the manufacturer in a timely manner and interest on unpaid or late drug rebate amounts
is properly assessed.  We recommended that the State agency; ensure procedures are established to provide accurate
pending rebate amounts and properly present drug rebate receivables in its quarterly reports to CMS, resolve disputed items
in a timely manner in accordance with CMS guidelines, and collect interest on any disputed or unpaid drug rebate amounts
as well as late payments. The auditee concurred with our findings.